No. 19--

lln

tbe

åupreml ff,nwt of tbe Wnítel. btutlø
W.4., M.S. individually and on behalf of W.E,
Applicant

V

Hendrick Hudson Centrai School District,
Respondent.

On Petition for a Wñt of Certiot"añ to the
United States Court of Appeals forthe Second Circuit

APPLICATION FOR EXTENSION OF TIME
TO FILE A PETITION FOR A WRIT OF CERTIORARI

Litman l(rooks LLP
399 l{nollu'ood Road
\Ä'hite Plains, New York 10603

Phone: (gr¿) 684'2100

William A. Walsh, Esq.
Counsel of Record
16 Flanders Lane
Cortlarrclt Manor, NY 10567
Phone: QtÐ 558-5500
wwalsh@weitzlux.com

APPLICATION FOR EXTtrNSION OF TIMtr TO FILE
A PETITION FOR A WRIT OF CERTIORARI

TO: Justice Ruth Bader Ginsburg, Circr,rit Justice for the United

States Court

of Appeals for the Second Circuit:

Applicants, W.4., M.S., individually and on behalf of W.E., request an extension

of sixty days to file a petition for a writ of certiorari pulsuant to Rules of the
Supreme Court 13.5 and 22. The petition

will challenge tìre decision of the U.S.

in

W.A. v. Hendriclr Hudson Central Sch.

Conrt of Appeals for the Second Circuit

Dist., Nos. 17-3248,17'3313 (2d Cir. June 14,2019), a copy of which is attached. In
support of this application, Applicants provide the following information:
The Second Circuit issued its decision on June 14,2079.

App-1. Without

an

extension, the petition for a wrít of certíorar:z'would be due on September 12, 2019.

\ /ith the requested extension, the petition wottld be due on November 12, 2079.
This Court's jurisdiction will be based on 28 U.S.C.

S 1254(1).

This application is

subnritted within ten days of September 12, 2019.

The IDEA and a Free Appropriate Public Education

Uniler the Individuals with Disabilities Education Act (IDtrA), 20 U.S.C.
S 1400 et seq.,

states and public schools receiving fecleral funds for special-education

sei'vices must provide each child
ecìucation" (FAPtr). 20 U.S.C.

S

with a clisability a "fi'ee appropriate

public

1401(9). A FAPtr requires "an educational program

¡easo¡aÌtly calculated to enable a child to make progress altproltliatc in light of the
chilcl's circtrnrstances." Endreøt F. ex rel. Joseph F. v. Douglas Cn|..t'. Sch. Díst. RE'

t.

137 S.Ct. 988, 1001 (2017).
1

When a state and school district fail in their essential obiigation to a student,

courts have the power to order school authorities to reimburse parents for their

expenditures on

a private placement for a student if the court

determines that such placement is proper under the

ultimately

Act. School Comm. of Town of

Burlington, Mass. v. Dep't of Educ. of Mass.,471 U.S. 359, 369 (f gSS). Parents'
entitlement to tuition reimbursement is necessary to effectuate the IDEA's goal of
affording children wilh disabilities an education that is both free and appropriate.
Id. aL 370.

In 1993, this Court held that a private school placement is "proper under the
Act" when the private school provides an education "reasonably calculated to enable
the child to receive educational benefits." Florence Cnty. Sch. Dist. .Four v. Carter,

510 U.S. 7, 75 (f ggS). Further, Carter helcl that parents are not barred from
reimbnrsement because the private school in which the student enrolled clid not
nreet the IDtrA definition of a "free appropriate public eclucation

Court stated

in

." Id. at 13. As this

Carter, "[n]or do we believe that reimbursement is necessarily

barred by a private school's failure to meet state education standards

." Id. at 14.

Brief Case Background

The Hendrick Hudson Central School District denied applicant W.E.,

a

student with a disability, a free appropriate public eclucation for both ninth gracle
and tenth grade. After he missed over 100 days of school wil,h no special-education
selvices in eighth grade and withottt an ltrP for high schooÌ, his parents placed him

in a small private school with small classes, r'esidential selvices. nr-trsing

a study

ha11,

sei:vices,

and counseling. Becattse !\¡.8.'s eclucatior-lal performance

engagement improvecl clrastically-he misseci only nine davs in his

and

filst year,

for

exzrmple-his parents sought tuition reimbttrsement fol his ninth' and tenth-gi'ade
2

years. The New York Office of State Review (SRO) denied reimbursement for both
yearsi the SRO revelsed the decision of one Impartial Hearing Officer (IHO) and
concluded

that W.E.'s piâcement did not provide specially tailored instruction in

conformance

with state standards. The district court granted the parents

reimbursement for one school year, but the Second Circuit reversed the award and
denied any relief.

Despite acknowledging that W.tr. received academic, social, and emotional
benefits, and conceding that the record reflected that the school appeared to be an
"excellent placement," App-52-53, the Second Circuit ruled that its own precedents

required def'erence to "the State on a question of eilucational policy," on whether
the private school provided appropriate services. App-51, 53.

The Second Circuit Standard Conflicts with Other Circuits and Carter.

The Second Circuit's narrow analysis and application conflicts with Carter,
even though that court has acknowledged the broad Carter standard for tuition

reimbursement, and has created a split with its sister circuits. App-42. The
petition will raise the question of whether, when a school district has failed to meet

its obligation under the IDEA and denied the student a FAPE, the parents'
unilateral placement is "proper" if it is "reasonabl5' calculated to enable the student

to receive educational benefits" as Carter reqnrres and as the D.C. Circuit

has

conclucied , see Leggett v. D.C.,793 F.3d 59, 71 (DC Cir'2015), or if the parents must

meet additional criteria inclucling to show that the placement provides specially
tailored instruction, as defined by state policy ancì stanclards, as the Second Circuit

lequires. App-52.

The Second Circuit quotes C¿tt'ter oìr the "r'easonably calculated

foi'

eclucational benefits" stanclalcl. However', rathel thau zrpplying this stanclarcl ol
ð

looking

at the totaiity of circumstances to decide if a private

placement was

"reasonably calculated for educational benefits," as measured by "grades, test scores
and regular advancement," App-42, the Second Circuit gives great deference to "the

State on ... questionls] of educational poiicy." By requiring that the private
placement school's services meet these state definitions and policy, the Second

Circuit collides wíth CarteÌs conclusion that "reimbursement is not barred by

a

private school's failure to meet state education standards." Carter,510 U.S. at 14.
The Second Circuit also ruled, in contlast to other circuits, that reimbursement was

not appropriate as the speciaiized services such as srnall class sizes at the private
school provided him

with "'the kind of educational and environmental advantages

and amenities that might be preferred by parents of any child, disabled or not.'l'
App-49- 50 (authority omitted).

The Second Circuit's stanclard conflicts with other cilcttits' application of

Carter. For example, the D.C. Circuit, in I'eggett, reviewed an analogous fact
pattern to W.A., as the student did not have an ItrP at the beginning of the school
year and the parents piaced the student in a college preparatory boarding school

with small

classes where the student made progress. The D.C. Circuit,

ruling that

the placement was appropriate under the IDEA, found that, "the private boarding
school the parent selected was, at the time, the only one on the record "reasonably

calculated to enable the child to receive educational benefits" designed to meet the
chilcl's needs." Leg'gett,793 F.3d at 62. 'lhe facls are striking similar to W.A. and

the approach of the courts stands in opposition. Specifically, the Second Circuit, in
cleferring to the SRO's reliance on state regulations, applies the Carter- standard

differently than any other circuit. as Leggt'tt,193 F.3cl at l0-77, exemplifies.

A close airalysis of othei' cilcuits reve¿rls that other circuits follow the
"reaso¡ably calculated" standald more genelzilly ancl eqr-ritabi5,, like the D.C.
Circuit, without stlict aclherence to the st¿rte clefinitiott of special education selvices
zl

under state law or whether the services provided are generally available for all
students. Atthough the cases cite the sarrìe standard, they apply it very differently.

Dist. v Woody,865 F.3d 303,321 (¡ttr Clr. 20L7); L.B. ex
rel. K.B. v Nebo sch. Dist., 379 F.3d 966, 978-19 (rOth Cír. 2004); nabb v. Knox
See, e.g., DaLlasIncl. Sch.

Cnty. Sch. Sys., 965 F.2d 104, 108 (Oth Cir.t992); Tice v. Botetout"t Cnty. Sch. Bd.,
908 F.2d 1200, 1205-06 (+ttt
The Applicants

will

cir.

1990).

also asl< this Court to resolve a split in the circuits over

the level of deference that a district court must give in reviewing an administrative
decision under the

IDEA. Specifically, may

circumstances analysis and or must

a district court conduct a totality of the

it defer to the state on policy jr"rdgments, absent

objective error. Contraly to other circuits, the Second Circuit prohibits the district

court from conducting its "own totalitS' of the circumstances analysis" and
"substitut[ing] its own subjective assessment for that of the State." App-52. Put
another way, "a reviewing coult is not entrtled to ovetrule the State on a question
of educational policy-such as whether a generally available resource is speciaily

tailored to a particular disabled student's needs-based only on its

own

disagreement with the State's evaluation of that resolrrce." App-51. The Second

Cii,cuit's decision conflicts with a majority of the cilcuits, which have granted

district courts the discretion to iletermine how much deference to give to the
conclusions of a healing officer or SRO. Sce, e.g., Klein Indep. Sch. Díst. v. Hovent,
Ggg F.3ct 390,394, n. +.

"virtually

(¡th Cír.201ù (charactertztng the districtcourt's review

de noys"); Obertí v. Bd. ol'Educ. ofBorottgh of Clententon Sch.

F.2d, 1204,

I2Ig

(Sd

as

Dist.,995

Cir. 1993) (observing that distlict conlts have discretion to

cletermine horv mnch clefelence to accorcl the aclministi'ative ploceedings)i DoSde v.

Atlington

Cnt.y. Sch.8c1.,953 F.2d 100. 105 (¿tn Cii'. 1991)

(statingthatthe district

court is merely "r'equirecl to exltlain" t'evet'sal of au aclrninistrative officer's factual
cleternrinations), Ca¡tistrano Llnifr'ecl Sch. Dist. v. W¿¡rte¡tberg,59 F.3d 884, 891 (gth
ir

Cir. 1995) (asserting that the degree of deference rests within district
discretion); Loren

(fftn Cir.2003)

-F. ex

rel. Fisher

v.

court's

Atlanta Indep. Sch. 9ys.,349 F.3d 1309, 1319

(noting that "some... deference" is owed to state administrative

proceedingsi and the district court may reverse factual findings but "is obliged to

explain why"); Reid ex rel. Reid v. D.C., 407 F.3d 516, 522 (O.C. Cir. 2005)
(confirming that district court review is "nondeferential" and less deferential than
typical judiciat review of agency actions).
Issues Presented are ImPortant

Tuition reimbursement is an essential right under the IDtrA and this Court

has continuallv corrected the courts of appeals when they have given the
reimbursement provision an overly narlow reacling that conflicts with the IDEA's

remedial pulpose. See, e.g., -Forest Grove Sch. Dist. v. 7.A.,557 U.S, 230,244-45
(ZOOS)

(observing that without the remedy of tuition reimbursement for a chiid not

yet receiving special education services, a "chilcl's right to a free appropriate
education would be less than complete")i Carter 510 U.S. at 13i Burlington, 47I
U.S. at 369-370. The Second Circuit's decision will impede the rights of many
children to receive an appropriate eclttcation and constrict parental rights. In the
circumstance whele parents must consider placing their child in

a

private school,

a

decisio¡ with grave emotional and financial consequences, and where the school

district has failed to provide a FAPtr. courts should not hold parents to a higher
standard than the state and school district.

ii

Applicants Seek Extension for Good Cause

This application seeks to

accommodate Applicants' legitimate needs.

Counsel has been working with and consulting other counsel to secure input and
expertise on the petition. The requested extension is necessary for all counsel to

familiarize themselves with the IDEA, this Court's decisions, and how the courts of
appeals have applied Carter.

In addition, undersigned

counseÌ is a senior member

of a trial team currently preparing for a trial scheduled to begin on October

15,

2019,and those efforts have consume an extensive amount of time. The requested
extension would guarantee that counsel can prepare a petition that fully and fairly
presents the issues in the case.

For the foregoing reasons and good cause, Applicants request that the due
date for the petition fol ã

writ of certiorari

be extended to November 72,2019.

Re sp

ectfully submitte

d,

By

William Andrew Walsh, Esq.
Bar No. 310632
Cottnsel of Record
I6 Flanders Lane

for

W.A., M.S.

Cortlandt Manor, NY 10567
Phone: (gt+) 714'4427
wwalsh@weilzlr:x.com

Arshi Pal, Esq.
Littman Krooks LLP
655 Third Avenue
New York, NY 10017

QtÐ

Datecl: August 30, 2019
7

490-2020

